No. Case: 19-406

In the
SUPREME COURT OF THE UNITED STATES
MARILU TOUMA,
Petitioner,
vs.
THE GENERAL COUNSEL OF THE REGENT AND
ET AL, Respondents,
On Petition for Certiorari to the United States
Court of Appeals for the Ninth Circuit,
San Francisco, California, No. 18-55996
The Southern District Court,
Santa Ana, California. No. 8:17-cv-01132-VBF-KS
The Central District Court,
Los Angeles, California. No. 8:17-cv-01132-VBF-KS
CERTIFICATE OF SERVICE

I, Marilu Touma, do swear or declares on this date, January 3, 2020 as required by
the Supreme Court Rule 291 have served the enclosed (3) copies of the Petition for
Rehearing on each party to the above proceeding, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of hem and with First-class postage prepaid.
Names and addresses that were served are as follow:
1. The General Counsel of the Regents aka “The Regents”,
1111 Franklin Street, 8th Floor,
Oakland, CA 94607-5200
2. Veena Ranganath, Arthritis Specialist (FIRST LOCATION)
UCLA Rheumatoid Arthritis Department
Certificate of Service- Petition of Rehearing
Page 1 of 3

200 UCLA Medical Plaza. Suite B365
Los Angeles, Ca 90095
Also, send notification letter to the above documents to the following address:
UCLA Rheumatoid Arthritis Department
2020 Santa Monica Blvd. Suite 540 (SECOND LOCATION)
Santa Monica, Ca 90404
3. Roy Davis Altman, Arthritis Specialist (FIRST LOCATION)
UCLA Rheumatoid Arthritis Department
200 UCLA Medical Plaza. Suite B365
Los Angeles, Ca 90095
4. Melissa Ginsburg. UCLA Emergency Nurse
UCLA Emergency Medicine
924 Westwood, Blvd., Suite 300
Los Angeles, Ca 90095
5. Mike (Unknown last name). UCLA Emergency Nurse
UCLA Emergency Medicine
924 Westwood, Blvd., Suite 300
Los Angeles, Ca 90095
6. Nicholas Baca
UCLA Emergency Department Clerk
757 Westwood Plaza
Los Angeles, Ca 90095
7. Emily Huang, M.D.
UT Southwestern Medical Center
5323 Harry Hines, Blvd.,
Dallas, TX 75390
8. Michael Weingrow, D.O.
UCLA Emergency Medicine
924 Westwood, Blvd., Suite 300
Los Angeles, Ca 90095
9. Los Angeles City
City Clerk Claims Department
200 North Spring Street, Room 395
City Hall, Los Angeles, Ca 90012
Certificate of Service- Petition of Rehearing
Page 2 of 3

10. Los Angeles County
Executive Office Board of Supervisors. Claims
500 West Temple Street, Room 383
Kenneth Hahn Hall of Administration, Los Angeles, Ca 90012
11. Pharmaceutical
Bristol-Myers Squibb (BMS)
430 E. 29 Street, 14 Floor
New York City, NY 10154

I declare under penalty of perjury that the forgoing is true and correct.
Execute on January 1, 2020.

MARILU TOUMA
Petitioner
4439 Murietta Avenue #20
Sherman Oaks, Ca 91423

Certificate of Service- Petition of Rehearing
Page 3 of 3

